           U.S. Department of
                                                 Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Quality Control Review of the                Date:    September 29, 2006
           Report on Controls Over the Enterprise Service
           Center’s Delphi Financial Management System
           Report No. QC-2006-076
  From:    Rebecca C. Leng                                   Reply to
                                                             Attn. of:   JA-20
           Assistant Inspector General for Financial and
            Information Technology Audits
    To:    Assistant Secretary for Budget and Programs/
            Chief Financial Officer

           This report summarizes the results of the review of system security controls over
           the Department of Transportation (DOT) Enterprise Service Center’s (ESC)
           Delphi Financial Management System. The ESC performs accounting and
           financial management functions for DOT and other Federal organizations. It is
           maintained by Federal Aviation Administration employees at the Mike Monroney
           Aeronautical Center in Oklahoma City.

           ESC is one of four Centers of Excellence designated by the Office of Management
           and Budget to provide financial management information system services to other
           governmental agencies. ESC supports other Federal entities, the National
           Endowment for the Arts, and the Institute of Museum and Library Services. The
           Office of Management and Budget requires Centers of Excellence to provide
           client agencies with an independent audit report in accordance with the American
           Institute of Certified Public Accountants (AICPA) Statement of Auditing
           Standards.

           This year’s audit was completed by Clifton Gunderson, LLP, of Calverton,
           Maryland. We performed a quality control review of the audit work to ensure that
           it complied with applicable standards. These standards include the Generally
           Accepted Government Auditing Standards and AICPA’s Statement on Auditing
           Standards (SAS) 70. In our opinion, Gunderson’s audit work complied with
           applicable standards.
                                                                                                                    2


The Clifton Gunderson audit report concluded that management’s description of
controls for the Delphi Financial Management System presents fairly, in all
material respects, the controls that had been placed in operation as of May 31,
2006. In addition, on 9 out of 10 control objectives, the independent auditor
concluded that controls, as described, are suitably designed and were operating
effectively during the period from October 1, 2005, through May 31, 2006. This
represents a significant improvement from last year and is the result of a concerted
effort made by DOT Headquarters staff and ESC management to implement
previous audit recommendations. 1

This enhanced operational environment enabled auditors to rely on Delphi
Financial Management System controls when conducting this year’s financial
statement audits. However, continued improvement is needed. Specifically,
Gunderson reported that controls were not suitably designed and not operating
with sufficient effectiveness to achieve one stated objective, “Logical Access
Controls provide reasonable assurance that safeguards are established to prevent or
detect unauthorized access.” 2

    • Not Suitably Designed. The computer network architecture was not
      suitably designed to provide adequate logical access controls. Delphi
      system servers reside in a network that is shared by all users at FAA’s Mike
      Monroney Aeronautical Center. The ESC staff responsible for maintaining
      Delphi does not fully control this shared network. If the network is not
      properly secured, other systems on this network could become an entry
      point of unauthorized access to the Delphi Financial Management System.
      Management should install firewall protection to limit access to Delphi
      servers by other Aeronautical Center system users.

    • Not Operating Effectively. Controls were not operating with sufficient
      effectiveness in the areas of programmer access to production servers,
      timely revocation of terminated employees’ system access, and network
      equipment vulnerability to known security risks. ESC management needs
      to enforce better control practices.

Gunderson made 12 recommendations to improve controls and submitted them to
DOT management. We agree that implementing these recommendations would
further enhance controls over Delphi Financial Management System operations
and have included these recommendations in this report (see Exhibit). In a
September 26, 2006, response to the Office of Inspector General, the DOT Deputy

1
    Report Number QC-2005-075, “Quality Control Review of the Report on Controls over the Delphi Financial
    Management System,” September 2, 2005. In this report, auditors concluded that controls were suitably designed for
    8, and operating effectively for 7, of the 10 stated control objectives. OIG reports can be found on our website:
    www.oig.dot.gov.
2
    The independent auditor’s report is available upon request.
                                                                                3


Chief Financial Officer concurred with the recommendations and committed to
implementing corrective actions (see Appendix).

In accordance with DOT Order 8000.1C, the corrective actions taken in response
to Gunderson’s recommendations are subject to audit follow-up. Gunderson is
performing additional testing and will prepare a follow-up management letter to
the Office of Inspector General reporting whether the control environment
changed significantly between June 1 and September 30, 2006. After receiving
Gunderson’s follow-up letter, we will decide whether additional support, including
target completion dates, is needed for the corrective actions.

We appreciate the courtesies and cooperation of ESC, the Office of the Secretary
of Transportation, and Clifton Gunderson representatives during this audit. If you
have any questions concerning this report, please call me at (202) 366-1496 or
Edward Densmore, Program Director, at (202) 366-4350.

Attachments

                                        #

cc: Chief Information Officer, Department of Transportation
    Federal Aviation Administrator
    Assistant Administrator for Financial Services/CFO, FAA
    Assistant Administrator for Information Services/CIO, FAA
    Assistant Administrator for Region/Center Operations, FAA
    Director, Mike Monroney Aeronautical Center, FAA
    Martin Gertel, M-1
    Anthony Williams, ABU-100
                                                                                    4




EXHIBIT. RECOMMENDATIONS OF CLIFTON GUNDERSON, LLP,
INDEPENDENT AUDITOR
DOT Management should implement the following actions to enhance Delphi
security administration controls.

1. Division/Administrative Heads and Departmental COTRs should notify the
   Delphi ISSO of all new hires and request that the ISSO provide justification
   that all new system users have received the requisite security training within
   the mandated 30 day period. These management personnel should ensure
   strict adherence to existing DOT policies with respect to documenting the new
   employee/contractor checklist; routing all new hire information via Human
   Resources to the Delphi ISSO so that mandatory security training can be
   enforced.

2. Ensure the Delphi Incident Response Capability includes all requirements as
   stipulated by the National Institute of Standards and Technology – Special
   Publication 800-61 – “Computer Security Incident Handling Guide”.

DOT Management should implement the following actions to enhance Delphi
physical access controls.

3. Perform an analysis of all employees with access to the data center and
   document the motive for this access. Periodically review this list and have the
   system owners certify their users. Review access frequency and remove
   permanent access for employees who do not need this access in the daily
   execution of their duties.

4. Develop and implement log review policies to ensure the visitor log is filled
   out in its entirety each time a person visits the data center. Ensure punitive
   measures are implemented against employees (escorts) who do not abide by
   these policies.

5. Install Closed Circuit TV cameras.

DOT Management should implement the following actions to enhance Delphi
backup, recovery, and maintenance controls.

6. ESC Management should periodically test the SMF Disaster Recovery plan.



EXHIBIT Recommendations of Clifton Gunderson, LLP, Independent
Auditor
                                                                                   5


DOT Management should implement the following actions to enhance Delphi
logical access controls.

7. ESC Management should consider implementing a security enclave that
   would separate the Delphi servers by placing the servers on their own internal
   IP network. The access to this network should be controlled by firewalls and
   monitored by IDS. In the short run, coordinate patch management and other
   security features for all agencies that own hardware/software in the MMAC
   data center.

8. ESC Management should review the current rights of programmers and
   remediate inappropriate access.

9. Management should review the automated process for revoking access to
   operating system accounts. Review the current process and refine the method
   of disabling and/or removal of access accounts at the application and
   operating system levels.

10. Conduct network (Internal and External) scans periodically including scans of
   System Administrator workstations and terminals. Alternate or rotate
   scanning software as different tools depending on their settings will capture
   vulnerabilities differently.

DOT Management should implement the following actions to enhance Delphi
application input controls.

11. In addition to the quarterly recertification of user access, we recommend
   Delphi management team strengthens its monitoring techniques over powerful
   application privileges.

12. We recommend that all Delphi users’ access be reviewed on a quarterly basis
   to ensure their rights and privileges are based on a need-to-know principle.
   ESC should enforce this policy for all Delphi Customers. Also, ESC should
   immediately revoke a users’ access when such revocation is requested by the
   user’s Security Officer.




EXHIBIT Recommendations of Clifton Gunderson, LLP, Independent
Auditor
                                                                                          6



APPENDIX. MANAGEMENT COMMENTS




                                  September 26, 2006



MEMORANDUM TO:                Rebecca C. Leng
                              Assistant Inspector General for Financial, Information
                              Technology, and Departmentwide Programs

FROM:                         Larry Neff
                              Deputy Chief Financial Officer

SUBJECT:                      Management Response to Security Audit
                              of the Delphi Financial Management System


Thank you for the Quality Control Review report of the Delphi Financial Management
System, which is operated and maintained for the Department of Transportation by the
Enterprise Services Center (ESC) in Oklahoma City. We appreciate all the help the
Office of Inspector General (OIG) staff provided in coordinating Clifton-Gunderson's
Statement on Auditing Standards (SAS) 70 audit of Delphi for Fiscal Year 2006.

We have worked closely with the auditors throughout this SAS-70 review to ensure
that as soon as an issue was raised, immediate action was taken to mitigate risks and
to further strengthen Delphi's security controls. Corrective actions taken to enhance
Delphi’s security controls in response to this year’s SAS-70 audit include:

   Security Awareness Training procedures for the Office of Enterprise Systems (AME)
    have been enhanced and management has been informed of the new procedures.

   The Delphi Incident Response Plan has been updated to include all elements as
    described in NIST 800-61, and the updated plan has been distributed to all Delphi
    personnel.

   The procedures for handling visitors to the Systems Maintenance Facility (SMF) data
    center have been enhanced. Visitors to the SMF are now issued Visitor Badges on
    entering the SMF. These procedures also include updating the SMF Visitor Log.

   The SMF Disaster Recovery Plan has been updated and tested, and the test results
    have been documented.



APPENDIX Management Comments
                                                                                           7


   Documentation of SMF Tape Restoration procedures has been completed.

   Production and Development Operating System (OS) accounts have been
    updated to ensure access is limited based on business need.

   OS Account Revocation procedures have been enhanced.

   All unpatched software has been removed from System Administrators’ workstations.

   Delphi support staff production update responsibilities have been reviewed to ensure
    all are appropriately end-dated.

   The Delphi User Recertification process has been enhanced and communicated
    to the Delphi Security Officers.

   All “Null” sessions have been disabled.

   The ISCS has implemented a monthly scan of all Delphi System Administrator,
    Application Administrator, and Database Administrator workstations.

   Any available and required server patches have been applied.

   Delphi Windows-based servers have had Host-Based firewalls installed.

   All high internal scan findings have been mitigated.

The following additional corrective actions are currently underway:

   The SMF is in the process of researching other methods to enforce visitor sign-in and
    sign-out.

   Cameras are scheduled to be installed in the SMF as part of the ongoing Aeronautical
    Center-wide Facility Security Risk Management (FSRM) Project. The cameras will
    provide surveillance and recording capability for activity within the SMF. The
    FSRM project's installation, test and commissioning phases are scheduled for
    December 2006 through May 2008.

   Delphi Windows Servers are scheduled to have Host-Based firewalls installed by
    December 15, 2006.

   An Access Portal is scheduled to be implemented for access to Delphi applications
    by December 31, 2007, or earlier if possible, depending on the schedule for the
    upgrade to release 11.5.10 of the Oracle 11i e-Business Suite. Once implemented,
    users will only be able to view information on the site after authentication. In
    addition, research is currently underway to determine if the Delphi Internet Home
    Page (idelphi) can be disabled.




APPENDIX Management Comments
                                                                                      8




We look forward to continuing to work with you and your staff to strengthen the
design and implementation of Delphi security controls. As a Shared Service Provider
(SSP) designated by the Office of Management and Budget (OMB) to provide other
Federal agencies with our Delphi financial system and accounting services, we are
strongly committed to ensuring that the Delphi Financial Management System meets
or exceeds all security requirements.

Thank you for your continuing support and assistance in this effort.

Attachment


cc:
Joann Adam, Lindy Ritz, Stan Sieg, Marshal Gimpel, Bob Stevens, Keith Burlison,
Cheryl Rogers, Mike Myers, Laura Ramoly, Phil Loranger, Laurie Howard, Joanne Choi,
Sheldon Edner, Arvid Knutsen




APPENDIX Management Comments
                                                                                        9




              FY 2006 Delphi SAS-70 NFR Action Plan Summary
as of September 26, 2006

NFR #            Description             Status                 Corrective Actions
                                                        Create Security Awareness Training
         AME Security Awareness                          Procedures
 1.1                                   Completed
         Training                                       Inform AME Management of Training
                                                         Procedures
                                                        Update Delphi Incident Response Plan
                                                        Internal Management Review of updated
         Delphi Incident Response
 1.2                                   Completed         Plan
         Plan
                                                        Distribute updated Plan to Delphi
                                                         personnel
 2.1     SMF Physical Access           Completed        Enhance access procedures
                                                        Procure SMF Visitor Badges
 2.2     SMF Visitor Log               In Progress
                                                        Implement ID/Badge Swap-Out
 2.3     SMF Cameras                   In Progress      Install Cameras in the SMF
         Test of SMF Disaster
 3.1                                   Completed        Document SMF DR Test Results
         Recovery Plan
         SMF Tape Restoration
 3.2                                   Completed        Document Tape Restoration Procedures
         Procedures
         Network Logical Access                         Install Host-Based Firewalls on Windows
 4.1                                   In Progress
         Controls                                        servers
                                                        Remove OS Access for 3 Programmers
         DEV and PROD OS
 4.2                                   Completed        Research OS Access of DBA
         Accounts
                                                        If necessary, remove OS Access of DBA
         OS Account Revocation
 4.3                                   Completed        Enhance OS Account Revocation Process
         Process
                                                        Implement Portal for Access to all Delphi
 4.4     Website Info Prior to Logon   In Progress
                                                         Apps/Info
                                                        Research Need for NULL Sessions
 4.5     NULL Sessions                 Completed
                                                        If feasible, disable NULL Sessions
                                                        Remove Unpatched Software
 4.6     Compromised Workstation       Completed        Create Process to Scan SA/DBA/AA
                                                         Workstations
                                                        Research/Apply Servers Patches, as
 4.7     Penetration Test Findings     Completed
                                                         Appropriate
 4.8     Internal Scan Findings        Completed        Mitigate Internal Scan Findings
 5.1     Open/Close Responsibilities   Completed        End-Date GL Access Responsibilities
                                                        Enhance/Enforce User Recertification
 5.2     Delphi User Recertification   Completed
                                                         Process




       APPENDIX Management Comments
